OIG Investigative Reports, Philadelphia, PA., July 13, 2012 - Charter School's Former Board President and former CEO are Sentenced for Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
United States Attorney
Eastern Bistrict of Pennsylvania
615 Chestnut Street
Suite 1250
Philadelphia, Pennsylvania 19106-4476
(215) 861-8200
FOR IMMEDIATE RELEASE
July 13, 2012
Charter School's Former Board President and Former CEO are Sentenced for Fraud Scheme
PHILADELPHIA- Hugh C. Clark, 65, and Ina Walker, 59, both of Philadelphia, were
sentenced today for their respective roles in a scheme to defraud the Philadelphia-based New Media
Technology Charter School ("New Media") and the Wilmington Savings Fund Society. Clark, who
pleaded guilty in April to conspiracy, wire fraud, bank fraud, and theft from a federally funded
program, was sentenced to 24 months imprisonment and five year supervised release. Walker who
pleaded guilty in January, was sentenced to 6 months imprisonment and five years supervised release
to include 100 hours of community service. U.S. District Court Judge Jan E. DuBois also ordered
the defendants to pay restitution in the amount of$861,000 and special assessment of $2,800.
Clark was a founder of New Media in 2004 and served as president of the New Media board
of directors. Walker was a founder and served as CEO. Both were forced to resign effective
December 31, 2009. The superseding indictment charged Clark and Walker with improperly using
approximately $522,000 in New Media funds to (a) pay expenses at a small private school, Lotus
Academy (b) advance Clark and Walker's personal business ventures, including the Black Olive
health food store and the Black Olive restaurant, (c) benefit Tekhen, a web design and internet access
company that Clark owned and controlled, and (d) pay their own personal expenses. At least
$309,000 was fraudulently diverted from New Media to Lotus Academy, often disguised as prepaid
rent or bogus security deposits. Once the funds were deposited into Lotus Academy bank accounts,
the defendants spent the money on the expenses of their private school, and on their personal and
business ventures.
As a result of the defendants' improper and fraudulent use of funds, New Media failed to
meet its expenses, such as employee payroll checks, monthly employee withholdings and quarterly
employer contributions to the Pennsylvania School Employees Retirement System, payments to the
schooi,s athletic coaches, and payurents to a textbook vendor.
Clark, without notice to or approval from the New Media Board of Directors, entered New
Media into a written contact to purchase a school property for the sole purpose of benefitting Lotus
Academy. Clark and Walker used $15,000 ofNew Media's funds as part of the $45,000 deposit for
purchase of the school property. When the sale did not close and the $45,000 deposit was returned
to Lotus Academy, Clark and Walker did not return the $15,000 to New Media. Rather, Clark and
Walker caused the entire $45,000 to be spent in various ways, including for Lotus Academy
expenses (rent and payroll), payments to the Black Olive business ventures, and a cash deposit into
defendant Walker's personal bank account to pay Walker's personal bills.
Clark and Walker also defrauded Wilmington Savings Fund Society (WSFS) by providing
false documents to obtain a $357,500 loan from the bank in 2006. The loan, obtained in Walker's
name, was used to buy a commercial property at 22-24 E. Mount Airy Avenue which housed the
Black Olive restaurant and Walker ultimately defaulted on $339,000 of the debt.
The case was investigated by the United States Department of Education Office of lnspector
General and the Federal Bureau of Investigation. The School District of Philadelphia's Office of
Inspector General provided assistance in the investigation. It was prosecuted by Assistant United
States Attorney Joan E. Burnes.
UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT, PENNSYLVANIA
Suite 1250, 615 Chestnut Street
Philadelphia, PA 19106
Contact:  PATTY HARTMAN
Media Contact
215-861-8525
Top
Printable view
Last Modified: 07/23/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov